                     Closeout of M91-030016




-                                                             -
subject used text from referenced sources without quotation marks
in a 14-page, single-spaced proposal.           One was in the
flIntroductionw;one in the "Background of the Proposed ResearchM;
and one in the body of the proposal; (2) failure to cite the source
of the figure on each of two relevant figures; (3) failure to
include the source of one of the figures in the bibliography; and
(4) failure to include the publication volume number and page
                                        - - The complainant also
numbers in a citation in the biblioqraphy.
stated that he previously informed N& of improper attribution by
the subject in two of his earlier proposals                 and

OIG1s inquiry revealed that this was not a serious case of
plagiarism. Although some sentences are close to verbatim, only
one sentence which appeared in the title of a figure was actually
verbatim. The written material cited in the allegations is for the
highly specialized, technical reader. Alternatives to a technical
vocabulary are limited. Further, part of the allegedly plagiarized
material is from a source common to both the subject and the
author(s) of the paper allegedly plagiarized; both originally
contributed to this common source. The complainant incorrectly
attributed one figure which the subject correctly attributed but
only listed in his bibliography and not on the figure itself. The
second figure is not identical as alleged and it is arguable that
the figure itself should carry a citation. OIG resolved this
matter by having the subject submit to NSF revised pages for his
three proposals. These pages clarify sources in his text and for
his two figures. This case can now be closed with a finding of no
misconduct.
